<html>
<title> - MOLD: A GROWING PROBLEM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        MOLD: A GROWING PROBLEM
=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                AND THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2002

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 107-77








                          U.S. GOVERNMENT PRINTING OFFICE
82-476                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 JOHN J. LaFALCE, New York
MARGE ROUKEMA, New Jersey, Vice      BARNEY FRANK, Massachusetts
    Chair                            PAUL E. KANJORSKI, Pennsylvania
DOUG BEREUTER, Nebraska              MAXINE WATERS, California
RICHARD H. BAKER, Louisiana          CAROLYN B. MALONEY, New York
SPENCER BACHUS, Alabama              LUIS V. GUTIERREZ, Illinois
MICHAEL N. CASTLE, Delaware          NYDIA M. VELAZQUEZ, New York
PETER T. KING, New York              MELVIN L. WATT, North Carolina
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
FRANK D. LUCAS, Oklahoma             KEN BENTSEN, Texas
ROBERT W. NEY, Texas                 JAMES H. MALONEY, Connecticut
BOB BARR, Georgia                    DARLENE HOOLEY, Oregon
SUE W. KELLY, New York               JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                MAX SANDLIN, Texas
CHRISTOPHER COX, California          GREGORY W. MEEKS, New York
DAVE WELDON, Florida                 BARBARA LEE, California
JIM RYUN, Kansas                     FRANK MASCARA, Pennsylvania
BOB RILEY, Alabama                   JAY INSLEE, Washington
STEVEN C. LaTOURETTE, Ohio           JANICE D. SCHAKOWSKY, Illinois
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, North Carolina      CHARLES A. GONZALEZ, Texas
DOUG OSE, California                 STEPHANIE TUBBS JONES, Ohio
JUDY BIGGERT, Illinois               MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                HAROLD E. FORD Jr., Tennessee
PATRICK J. TOOMEY, Pennsylvania      RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       KEN LUCAS, Kentucky
JOHN B. SHADEGG, Arizona             RONNIE SHOWS, Mississippi
VITO FOSSELLA, New York              JOSEPH CROWLEY, New York
GARY G. MILLER, California           WILLIAM LACY CLAY, Missouri
ERIC CANTOR, Virginia                STEVE ISRAEL, New York
FELIX J. GRUCCI, Jr., New York       MIKE ROSS, Arizona
MELISSA A. HART, Pennsylvania         
SHELLEY MOORE CAPITO, West Virginia  BERNARD SANDERS, Vermont
MIKE FERGUSON, New Jersey
MIKE ROGERS, Michigan
PATRICK J. TIBERI, Ohio

             Terry Haines, Chief Counsel and Staff Director
                                 ------                                
              Subcommittee on Oversight and Investigations

                     SUE W. KELLY, New York, Chair

RON PAUL, Ohio, Vice Chairman        LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              KEN BENTSEN, Texas
ROBERT W. NEY, Texas                 JAY INSLEE, Washington
CHRISTOPHER COX, California          JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 DENNIS MOORE, Kansas
WALTER B. JONES, North Carolina      MICHAEL CAPUANO, Massachusetts
JOHN B. SHADEGG, Arizona             RONNIE SHOWS, Mississippi
VITO FOSSELLA, New York              JOSEPH CROWLEY, New York
ERIC CANTOR, Virginia                WILLIAM LACY CLAY, Missouri
PATRICK J. TIBERI, Ohio

           Subcommittee on Housing and Community Opportunity

                    MARGE ROUKEMA, New Jersey, Chair

MARK GREEN, Wisconsin, Vice          BARNEY FRANK, Massachusetts
    Chairman                         NYDIA M. VELAZQUEZ, New York
DOUG BEREUTER, Nebraska              JULIA CARSON, Indiana
SPENCER BACHUS, Alabama              BARBARA LEE, California
PETER T. KING, New York              JANICE D. SCHAKOWSKY, Illinois
ROBERT W. NEY, Ohio                  STEPHANIE TUBBS JONES, Ohio
BOB BARR, Georgia                    MICHAEL E. CAPUANO, Massachusetts
SUE W. KELLY, New York               MAXINE WATERS, California
BOB RILEY, Alabama                   BERNARD SANDERS, Vermont
GARY G. MILLER, California           MELVIN L. WATT, North Carolina
ERIC CANTOR, Virginia                WILLIAM LACY CLAY, Missouri
FELIX J. GRUCCI, Jr, New York        STEVE ISRAEL, New York
MIKE ROGERS, Michigan
PATRICK J. TIBERI, Ohio
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 18, 2002................................................     1
Appendix:
    July 18, 2002................................................    27

                               WITNESSES
                        Thursday, July 18, 2002

Ballard, Melinda, President, Policyholders of America............    12
Howard, Gerald M., Executive Vice President/CEO on behalf of the 
  National Association of Home Builders..........................     9
Redd, Stephen C., M.D., Chief, Air Pollution and Respiratory 
  Health Branch, National Center for Environmental Health Centers 
  for Disease Control and Prevention, U.S. Department of Health 
  and Human Services.............................................     7
Sandler, Howard M., M.D., Sandler Occupational Medicine 
  Associates, Inc................................................    16
Stewart, Gordon, President, Insurance Information Institute New 
  York, New York.................................................    14
Tighe, Thomas C., Executive Assistant of the International Union 
  of Operating Engineers and Director of Stationary Affairs......    11

                                APPENDIX

Prepared statements:
    Kelly, Hon. Sue W............................................    28
    Roukema, Hon. Marge..........................................    31
    Clay, Hon. Wm. Lacy..........................................    33
    Conyers, Hon. John...........................................    35
    Gutierrez, Hon. Luis V.......................................    42
    Lee, Hon. Barbara............................................    44
    Ballard, Melinda.............................................    46
    Howard, Gerald M.,...........................................    50
    Redd, Stephen C.,............................................    57
    Sandler, Howard..............................................    69
    Stewart, Gordon..............................................    75
    Tighe, Thomas C.,............................................    82

              Additional Material Submitted for the Record

Kelly, Hon. Sue W.:
    ``Costly Lawyer cashes in on `Mold' Money,'' New York Post, 
      May 17, 2002...............................................    86
Ballard, Melinda:
    ``Breakdown of Mold--Related Insurance Claims by State, 
      Number of Claims and Date''................................    87
    Written response to questions from Hon. Luis V. Gutierrez....    88
Howard, Gerald M.:
    Written response to questions from Hon. Luis V. Gutierrez....    94
Sandler, Howard:
    Written response to questions from Hon. Luis V. Gutierrez....    96
Stewart, Gordon:
    ``How did we get here? Texas: Mold's Ground Zero.''..........    99
    Written response to questions from Hon. Luis V. Gutierrez....   112
Tighe, Thomas C.:
    Written response to questions from Hon. Luis V. Gutierrez....   114
Air Conditioning Contractors of America, prepared statement......   116
Associated General Contractors of America, prepared statement....   120
Independent Insurance Agents & Brokers of America, prepared 
  statement......................................................   122


                        MOLD: A GROWING PROBLEM

                              ----------                              


                        THURSDAY, JULY 18, 2002

             U.S. House of Representatives,
                         Subcommittee on Oversight 
                                and Investigations,
                        and Subcommittee on Housing
                         and Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:20 p.m., in 
Room 2128, Rayburn House Office Building, Hon. Sue W. Kelly 
[Chairwoman of the Subcommittee on Oversight and 
Investigations] presiding.
    Present for the Subcommittee on Oversight and 
Investigations: Representatives Kelly, Tiberi, Gutierrez, 
Inslee, Schakowsky and Clay.
    Present for the Subcommittee on Housing and Community 
Opportunity: Representatives Kelly, Miller, Tiberi, Frank, Lee, 
Schakowsky, Clay and Israel.
    Also present: Representatives Conyers and Gonzalez.
    Chairwoman Kelly. This joint hearing of the Subcommittee on 
Oversight and Investigations and the Subcommittee on Housing 
and Community Opportunity will come to order.
    I want to thank all Members of Congress who are present 
today. There will be some more joining us. We have a vote on 
the floor of the House, which is why there are not so many 
people here just now, but they will be coming in, and I want to 
thank them for coming and for their presence today.
    Without objection, all members present will participate 
fully in the hearing; and all opening statements and questions 
will be made part of the official hearing record.
    The Chair recognizes herself for a brief opening statement.
    In the preparation for this hearing, I have spoken to many 
of my friends and colleagues about the issue of mold damage in 
commercial and private properties and reports of adverse health 
effects. While there are many who are aware of the seriousness 
of this issue, there are also many who are unaware of the 
growing scope of this problem. In an effort to increase all of 
our knowledge, Chairwoman Roukema, Ranking Members Gutierrez, 
Frank and I have agreed to hold this joint hearing.
    In my view, one issue with this is the lack of scientific 
evidence as to the direct correlation between mold damage and 
adverse health effects. One of the reasons that I am personally 
interested in this is that my major in college was 
bacteriology, and I dealt a lot with molds and so forth. So 
this has a personal interest to me. In addition to that, I am 
an asthmatic, and so are my kids. So, because of this 
uncertainty, I think homeowners' fears grow sometimes without 
the definitive evidence of what is safe or potentially 
dangerous levels of mold.
    In addition, the uncertainty of this issue has created a 
window of opportunity for unethical lawyers and contractors to 
prey upon vulnerable populations. As evidence and without 
objection, I am going to make part of the record a copy of a 
May 17 New York Post article entitled, Costly Lawyer Cashes in 
on Mold Money.
    [The following information can be found on page XX in the 
appendix.]
    Chairwoman Kelly. This article tells the story of a lawyer 
who settled a class action lawsuit for $1.7 million, taking 
more than half of that money for himself; and he left the 
families with an average of $1,000 each. The part of the 
article that alarmed me the most was this: "the money he 
offered me wasn't even enough to buy a decent tombstone for my 
daughter." this was said by an 81-year-old woman named Mattie 
Qualie, whose daughter, Lorraine Woods, age 58, died in 1998 
from an alleged long exposure to molds.
    All of us need to step back and look at the facts 
surrounding this issue and do so in a coordinated manner. The 
witnesses we have at the table today represent a broad cross-
section of the interested parties in the mold debate. By 
working together, I hope we will be able to find some answers 
in an area where there are still large numbers of unanswered 
questions.
    Let me state unequivocally that all of us have great 
sympathy for those who are suffering health problems of any 
kind, no matter what the cause. I would personally urge 
property owners to do everything they can to protect their 
investments and, most importantly, the families, from mold 
infestation. At the same time, this Congress must assess the 
true nature of the mold issue before rushing into legislative 
action.
    In the process of preparing for this hearing, my staff 
interviewed numerous medical experts who emphasized that mold 
simply cannot be directly connected to so many of the serious 
medical conditions for which it has been blamed. There are many 
causes that can be cited for the symptoms people blame on mold, 
such as hypersensitivity, allergies, viruses and deficiencies 
of the immune system.
    As we will hear this afternoon, the Centers for Disease 
Control is currently working with other institutions to study 
this issue and provide more information on the true health 
effects of mold infestation. It is imperative that we look to 
the Nation's medical research institutions to help us separate 
legitimate claims from what some have termed ``mold hysteria.''
    Ultimately, we have got to have better scientific standards 
and better safety education to help consumers and the industry 
identify legitimate dangers to immediately begin for 
compensation and remediation. We are holding this hearing to 
help us separate the facts from the myths surrounding the 
recent dramatic rise in mold claims and its reported 
catastrophic effects.
    While many Americans are unaware of potential dangers from 
untreated mold growth in commercial and private properties, the 
lack of scientific standards and documentation only adds to the 
confusion we all feel when confronted by potential dangers of 
substances that we grew up to believe were harmless. Who would 
have thought that when we shook pepper on our food, we were 
actually shaking on a mold? Who would think when we ate 
peanuts, we were actually ingesting a mold?
    I think it is very important that we distinguish what is 
myth from the scientific fact.
    [The prepared statement of Hon. Sue W. Kelly can be found 
on page XX in the appendix.]
    I am now going to recognize my friend from Massachusetts 
for his opening statement, Mr. Frank.
    Mr. Frank. Madam Chairman, on a day when the House is going 
to be voting, since we are meeting during the House being in 
session, and given the large number of witnesses, I will waive 
an opening statement so we can get the benefit of what they 
have to say. I can submit remarks later for the record.
    Chairwoman Kelly. Thank you very much, Mr. Frank.
    Mr. Miller.
    Mr. Miller. Thank you, Madam Chairwoman.
    I read a speech given at a gathering of attorneys, and the 
new quote is "mold is gold." it reminds me of tort litigation 
in California on attached products for defects, where attorneys 
would go out and sue a builder and every subcontractor and the 
lender. Then they would go to the board of directors, and they 
would say, do you enjoin in this lawsuit, or you can be held 
personally liable for damages, which by law they could be. So 
then the board of directors enjoins in the lawsuit, and the 
associations have to pay attorneys.
    The attorneys go in and buy one unit and gut it. If they 
can find nailing on drywall that is just an inch overspaced or 
half an inch over, they say that is a violation and it is 
typical of every unit. If they can find an oversized nut, they 
say that is typical of every unit. If they can find a crack in 
the concrete, they say it is typical of every unit.
    I know a developer who built a project in 1986 that lost a 
lawsuit in 1995 for $23 million, and it cost him $3.2 million 
to build the complex. I mean, it is a little outrageous.
    It reminds me when of when I was taking rhetoric in 
college. A professor referred to a post-hoc fallacy, and it is 
that A occurs; therefore, B occurs; therefore, A caused B.
    I think we are jumping to conclusions on some of these 
issues.
    I read some testimony that alluded to individuals having 
died from mold, Aspergillus growing in their lungs was the 
cause. Yet if you go to a wheat field, cornfield, a forest, a 
park, if you deal with mulch and you look at the parts per 
billion that you can receive just mulching your yard or walking 
in a forest so far supersedes what you could receive in the 
house with mold growing, it is just unbelievable. In fact, 
Aspergillus can be found in peanuts, pecans, peas, bread, 
cheese, rice, corn ears, barley grain, sorghum wheat and 
cottonseed, exceeding what you will find in a house.
    Some of the stuff I have read, I believe if there are 
legitimate claims, I don't have a problem with somebody being 
rewarded for legitimate claims. But it appears that some of 
this is just a way to get to an insurer or a builder and find a 
way to pull some money out of their pocket.
    Some of the claims that I have read, you would think there 
would have to be some liability on the part of the homeowner to 
do and perform basic maintenance on their home. When you have a 
leaky pipe, you don't wait a year to turn it into the insurer 
because your pipe was leaking, and then when your insurer pays 
you money to fix it and it far supersedes that money for other 
things, you still don't fix the leak--I mean, there is some 
point in time you have to look at yourself in the mirror and 
say, am I a little to blame here?
    I think we are avoiding that, in some cases and in some 
points, individual responsibility seems to be overlooked and 
people look to others to blame for their own negligence.
    So I am looking forward to the hearing. If there is truly 
scientific evidence that people are being damaged and it is 
other people's fault, let's get to the bottom of that. But if 
somebody says, well, look, there is something there, and harm 
must be occurring to somebody because of that, and yet there is 
no scientific evidence that that be the case--in fact, in some 
of the court cases I read there were no damages awarded for 
health issues at all, and yet these outrageous dollars are 
being proposed out there.
    Madam Chairwoman, I applaud you for having this hearing 
today and look forward to the testimony.
    Chairwoman Kelly. Thank you very much, Mr. Miller.
    Mrs. Roukema was unable to be with us today, but, with 
unanimous consent, I would like to insert her statement in the 
record.
    [The prepared statement of Hon. Marge Roukema can be found 
on page XX in the appendix.]
    Chairwoman Kelly. We turn now to the ranking member of the 
Oversight Committee, Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much, Chairwoman Kelley, and 
the ranking member, Mr. Frank, thank you for joining us this 
afternoon here and being part of this important hearing.
    We are gathered here to discuss an issue of great 
importance to thousands of Americans. The issue at hand is mold 
and the impact it has on property and people's health.
    In fact, believe it or not, mold is a growing problem, 
experiencing a five-fold increase in occurrences in homes. 
Thousands of Americans today are living in houses terribly 
infested by mold.
    I am sure there are those that would argue that the five-
fold increase is probably due to the fact that all the 
homeowners in the United States have decided to disregard and 
be careless about their water pipes and how it is they keep 
good conditions in their basement. Well, maybe that is the 
case, that homeowners across the country, specifically in the 
State of Texas, apparently, if that is the case, homeowners are 
being very, very derelict in their duty, as they have had a 500 
percent increase this year over last year.
    So maybe it is all of the careless, unworthy homeowners who 
bought a home, it is their prize possession, it is their number 
one investment, and they just decided they were going to have 
mold in it, and there is no other good reason for the sudden 
surge and increase in that mold.
    With that, Madam Chairwoman, I have nothing further to say. 
I would like the rest of my comments to be inserted in the 
record.
    Chairwoman Kelly. Without objection.
    [The statement of Hon. Luis V. Gutierrez can be found on 
page XX in the appendix.]
    Chairwoman Kelly. Also, without objection, I have a letter 
to Chairman Oxley from the Associated General Contractors of 
America which, without objection, we will insert in the record.
    [The following information can be found on page XX in the 
appendix.]
    Chairwoman Kelly. We go now to Mr. Clay.
    Mr. Clay. Thank you, Madam Chairwoman. I appreciate your 
having this hearing today, and I look forward to the testimony 
we are about to hear.
    We are indeed facing a growing problem with mold in houses 
and buildings. Homeowners, insurance companies and building 
construction companies are encountering tremendous financial 
and health problems because of harmful molds.
    We have thousands of molds, and most of them cause no 
problems to humans. As a matter of fact, some are beneficial to 
man and are vital for use in medicines, food production, and 
many other aspects of our everyday lives. While we mostly 
stereotype molds as being only in damp, dark environments, they 
exist everywhere.
    Madam Chairman, I will cut my opening statement short so 
that we can hear testimony from the witnesses and ask that I 
submit my statement for the record.
    Chairwoman Kelly. Thank you very much, Mr. Clay.
    [The prepared statement of Hon. William Lacy Clay can be 
found on page XX in the appendix.]
    Chairwoman Kelly. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Madam Chairman. I will also 
submit my opening statement for the record.
    I do want to say that, on my way over here, I was telling 
some colleagues of ours that I was coming here, and, to a 
person, they told me of a situation of pretty devastating mold 
contamination in their district. One Member told me about a 
school that actually had to be completely shut down because of 
mold contamination. Another told me about a building across the 
street from the site of the World Trade Center, some 60 stories 
tall or higher, that now is shut down; and they are trying to 
figure out what to do with it because of this toxic mold 
infestation.
    So it was really interesting to me. I had been aware of it 
from some constituents in my district, but this is a growing 
problem that increasing numbers of Members of Congress are 
aware of. I look forward to the testimony today.
    Thank you.
    [The prepared statement of Hon. Janice D. Schakowsky can be 
found on page XX in the appendix.]
    Mr. Gutierrez. If the gentlewoman would yield, as 
Congressman Schakowsky and I have both been made aware, in and 
around the City of Chicago in two different suburban locations 
they have had to close down two substantial high schools in the 
last 2 years because of the problem with mold. But maybe it was 
the kids coming to school ill-prepared those days that brought 
the mold with them.
    Chairwoman Kelly. Perhaps they came to school wet.
    Mr. Gonzalez.
    Mr. Gonzalez. Madam Chairman, thank you very much for the 
opportunity and privilege of attending this subcommittee 
hearing. I am not a member of either subcommittee, and I do 
appreciate being here.
    Just a couple of observations. I hope this is not going to 
somehow end up again a big argument over tort reform and 
everything else. We are really here to be educated again with 
the facts. Unlike war, legislation doesn't have to have the 
effect of truth being its first casualty.
    As far as litigation, I am very aware of what is going on 
in the State of Texas, but I will remind my fellow members, 
addressing some of the remarks, that some of the claimants in 
my own community, I will tell you who they are, one of them is 
a Justice of the Fourth Court of Appeals, a Republican; a State 
Senator, a Democrat; and some very prominent families. I don't 
think it is going to fit the description that sometimes we have 
had some abuses out there.
    But we really need to get down to the truth to see how 
serious it is, and in fact have we been handling it 
appropriately.
    Thank you very much, Madam Chairman.
    Chairwoman Kelly. Thank you very much, Mr. Gonzalez.
    Mr. Inslee.
    Mr. Inslee. Thank you. I just want to express my 
appreciation for your holding this hearing. Just two brief 
comments.
    First off, I know this is a real issue in my district where 
we had the taxpayers have a problem because a contractor in a 
school left the situation that did cause an enormous amount of 
mold growth that made this building entirely uninhabitable. The 
taxpayers had to bring a claim against the individuals 
involved. The individuals ultimately accepted responsibility, 
as they should have; and the taxpayers were reimbursed hundreds 
and hundreds of thousands of dollars they had coming to them. 
So I understand this has a broad import for taxpayers, not just 
health.
    The other comment I want to make as far as the tort issue, 
everybody has their perspective, and I am very interested in 
what is going on out there in the legal claim field. But I will 
just share one little story for you, if you talk about this 
issue in tort reform.
    I had a friend, let's call him Jim for a minute. I used to 
be a lawyer. I handled a lot of cases on behalf of people who 
had been injured, and Jim and I for 10 years had a running 
argument every time we had dinner or a brew together. 
Basically, he said all these claims were manufactured, 
fictitious, ridiculous, and they were ruining the American 
economy.
    We had that argument for 10 years, until the night his son 
got hit by actually a driver who had pulled out of a stop sign 
and caused grievous injury to his son; and his attitude changed 
very, very quickly. And my son is a home builder, so you know 
where I am coming from. I will tell you, if you get this mold 
growing in your house, your view of tort reform changes very 
rapidly, because I know this is a problem for a lot of people.
    Thank you, Madam Chairman.
    Chairwoman Kelly. We are joined by our colleague, Mr. 
Conyers. Mr. Conyers has a singular interest in this and, in 
fact, is the author of a bill, so we have asked him to join us 
today for this hearing, so he will be sitting in on this 
hearing.
    If there are no more opening statements, we will begin with 
the witnesses on our panel.
    Before us today we have Dr. Stephen Redd of the Centers for 
Disease Control and Prevention, a division of the U.S. 
Department of Health and Human Services. Dr. Redd, who is the 
Chief of the Air Pollution and Respiratory Health Branch of the 
National Center for Environmental Health at the Centers for 
Disease Control, is the institution's lead scientist on air 
pollution and respiratory health.
    Following Dr. Redd will be Mr. Gerald Howard, Executive 
Vice President and Chief Executive Officer of the National 
Association of Homebuilders.
    He will be followed by Thomas Tighe. Did I pronounce that 
right? Tighe, like the necktie, for all of us to remember. He 
is Executive Assistant to the General President and Director of 
Stationary Affairs at the International Union of Operating 
Engineers, both of whom will provide us with information on 
mold infestation in buildings.
    Then we will hear from Ms. Melinda Ballard, the President 
of Policyholders of America, who will discuss mold from the 
perspective of those whose homes have been affected.
    Following that, we will hear Mr. Gordon Stewart, President 
of the Insurance Information Institute, who will discuss the 
effects of mold claims on the insurance industry.
    Finally, we will hear from Dr. Howard Sandler, President of 
Sandler Occupational Medicine Associates, who will join Dr. 
Redd in discussing mold and health.
    I thank you all for coming. We are very pleased to have you 
join us here today to share your thoughts on this difficult 
issue.
    Without objection, your written statements will be made a 
part of the record.
    If you have not been with us before, there are lights in 
front of you in that black box at the end of the table. You 
will be recognized for a 5-minute summary of your testimony. 
Your entire written testimony will be made a part of the 
record. But the lights will indicate, just the way they do on a 
stoplight on a street, green means go; when you get to the 
yellow, it means you have 1 minute left; and when it goes red, 
it means it is time to finish speaking. That means your time 
has expired.
    Chairwoman Kelly. So, let us begin with you, Dr. Redd. 
Thank you so much for joining us today.

   STATEMENT OF STEPHEN REDD, M.D., CHIEF, AIR POLLUTION AND 
 RESPIRATORY HEALTH BRANCH, NATIONAL CENTER FOR ENVIRONMENTAL 
       HEALTH, CENTERS FOR DISEASE CONTROL AND PREVENTION

    Dr. Redd. Thank you very much. I am Dr. Stephen Redd, the 
lead CDC scientist on air pollution and respiratory health at 
the Centers for Disease Control and Prevention.
    Accompanying me today is Dr. Thomas Sinks, Associate 
Director for Science of environmental issues at CDC.
    It is a pleasure to appear before you today on behalf of 
the CDC, an agency that serves by protecting the health and 
safety of the American people. I want to thank you for taking 
the time to examine the importance of mold exposure and its 
affects on people's health.
    Today I will briefly summarize three issues for the 
committee: CDC's perspective on the state of the science 
relating to mold and health effects in people; CDC's efforts to 
evaluate health effects possibly associated with molds; and 
CDC's next steps in addressing this issue.
    Fungi are a kingdom of organisms that include mushrooms, 
molds and yeasts. There are between 50,000 and 250,000 species 
of fungi. More than 1,000 species of mold have been found in 
U.S. homes. Molds need moisture to grow and grow best in warm, 
damp conditions.
    Fungi and molds are known to cause several specific 
diseases. Fungi can cause infections. Ingestion of mold-
produced toxins can cause liver and kidney tumors, and molds 
cause a rare, chronic lung disease called hypersensitivity 
pneumonitis in workers in industrial and agricultural settings.
    In addition, molds have been associated with allergies. 
Airborne mold allergens have been associated with hay fever, 
allergic conjunctivitis and allergic asthma. The Institute of 
Medicine recently concluded that there was evidence of an 
association between exposure to mold and exacerbations of 
asthma but insufficient information on whether mold exposure 
caused the onset of asthma.
    We do not know whether molds cause other adverse health 
effects, such as hemorrhage from the lungs, memory loss or 
lethargy. We do not if the occurrence of mold-related illness 
is increasing. Other than surveillance for hospital-acquired 
infections, there is no system to track the public's exposure 
to and the possible health effects of mold.
    CDC has undertaken a number of activities related to mold 
and its possible effects on people's health. CDC conducted two 
epidemiologic investigations of clusters of hemorrhage from the 
lungs of infants. In one investigation a possible association 
was reported between exposure to the mold Stachybotrys atra and 
disease. This association was not found in a second 
investigation.
    In a review of that first investigation, CDC reviewers and 
an external panel of experts determined that there was 
insufficient evidence of an association between exposure to 
Stachybotrys atra or other fungi and hemorrhage from the lungs. 
CDC has plans to further evaluate this health condition, 
including tracking activities, investigations of disease 
clusters, and research studies.
    In recent years, we have conducted investigations in 
occupational settings, in schools, and in residences following 
flooding episodes. In addition to working with State health 
departments in North Dakota, Texas, and Connecticut, we have 
collaborated with the Federal Emergency Management Agency, the 
U.S. EPA, and the Department of Housing and Urban Development. 
My written testimony contains more details on these activities.
    CDC is also funding the Institute of Medicine to evaluate 
the relationship between damp or moldy indoor spaces and 
adverse health effects. In addition to conducting a 
comprehensive review of the scientific literature, the 
Institute of Medicine will provide recommendations for public 
health intervention and for future research. This work began in 
January 2002 and will be completed in the summer or early fall 
of 2003.
    In addition to these efforts, CDC is currently developing 
an agenda for research, service, and education related to 
molds. This effort will enable CDC to make recommendations for 
reducing mold contamination, identify conditions that 
contribute to the occurrence of disease following mold 
exposure, and assist State and local health departments in 
improving their capacity to investigate mold exposures.
    This is challenging work. Molds can be found almost 
anywhere, and individuals have different sensitivities to 
molds. It is not possible to specify a safe or a dangerous 
level for mold at this time.
    Because mold exposure can be harmful, CDC concurs with the 
recommendations of agencies such as EPA and FEMA that mold in 
indoor environments should be removed.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions that you may have.
    Chairwoman Kelly. Thank you very much, Dr. Redd.
    [The prepared statement of Dr. Stephen C. Redd can be found 
on page XX in the appendix.]
    Chairwoman Kelly. Mr. Howard.

  STATEMENT OF GERALD M. HOWARD, EXECUTIVE VICE PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, NATIONAL ASSOCIATION OF HOME BUILDERS

    Mr. Howard. Thank you, Madam Chairwoman, Mr. Frank, Mr. 
Gutierrez. Thank you for holding this hearing.
    My name is Jerry Howard, and I am the Chief Executive 
Officer of the National Association of Home Builders. NAHB 
represents more than 205,000 member firms involved in home 
building, remodeling, multifamily housing and other aspects of 
residential and light commercial construction. In fact, it is 
not an exaggeration to say that our members produce 80 to 85 
percent of all the housing units built in the United States.
    Our membership is united in its concern over the impact of 
this mold issue. Specifically, first and foremost, like all 
citizens, we are concerned about the health of our fellow 
Americans. NAHB, upon learning of the mold issue, immediately 
went to the forefront and began to study the impacts of mold 
and what we might be able to do about it.
    As a result of that study, with what we have done is, A, we 
began to educate our members about what they can do to decrease 
the amount of mold and housing in the construction process; 
and, B, to inform homeowners and home buyers about what steps 
they can do to remediate mold.
    Specifically, we will be presenting a pamphlet, a bilingual 
pamphlet, on our web site and in hard copy to all of our home 
builder members who prefer to give it out to their customers, 
and we are encouraging them to do so.
    Secondly, NAHB is concerned about the potential impact of 
mold on the housing industry as a whole. As you are all aware, 
the housing industry has been the bellwether and the buoy of 
our economy over the last several years. In fact, depending on 
what numbers you choose to believe, NAHB's members in the 
housing industry produce 14 percent of the Nation's gross 
domestic product.
    Over the past year, low interest rates and strong 
underlying demand for housing has kept housing strong while the 
rest of the economy has struggled. Of the almost 1.6 million 
new housing units, again I say, NAHB members produced 80 to 85 
percent of them.
    Unfortunately, the recent attention to indoor mold has the 
potential to negatively impact the housing industry and housing 
affordability. Specifically, I would point to increases in 
general liability insurance that our members are suffering. As 
an example, last year the general liability insurance on a 63-
unit entry-level housing development in California, and by 
"entry-level" I mean a purchase price of $125,000 per home, the 
general liability insurance on that project was $93,000, and it 
included mold insurance coverage. This year, that same project 
is insured for $216,000; and mold is excluded from the 
coverage. Unfortunately, Madam Chairwoman and members of the 
committee, that cost will ultimately be passed on to the 
American consumer.
    We agree with Dr. Redd and others who are going to testify 
that this is a serious issue. However, our primary concern is 
that we not rush to judgment. To the best that we can tell now, 
mold, while it is harmful, is not linked directly to any 
serious illnesses, and specifically mold in well-constructed, 
well-maintained houses has not been an issue for most Americans 
and their health.
    A survey that NAHB handed out in 2002 showed that most of 
our members are facing similar insurance cost increases as 
those described in my earlier example in California. Our 
builders have seen these insurance companies begin with these 
mold exclusions, and 150 percent increases is not out of the 
ordinary.
    Another potential adverse impact on the building industry 
are the calls for these new regulations and new building code 
requirements. NAHB has always sought to limit the economic 
impact of regulations on the cost of housing, and we will 
continue to do so. However, if it can be proven that there is a 
significant link between serious health risks and mold, NAHB 
would like to be part of the solution, and we look forward to 
working with the Members of Congress to implement appropriate 
regulations.
    Once again, we would suggest, however, that regulations 
generally do not fit the bill across the board for all types of 
construction and in all parts of the country. What may 
remediate mold effectively in California may not work in 
Vermont. What may work in South Carolina might not work in 
Idaho. So we would like to have the opportunity, if there is 
proven a nexus, to work with Members of Congress to develop the 
appropriate techniques to remediate mold, while at the same 
time taking care to preserve affordable housing and housing 
affordability.
    Again, let me reiterate that NAHB takes the health issue 
very seriously, that our members have been in the forefront of 
informing and studying, and we are prepared to work with 
Congress on this issue.
    Thank you, Madam Chairwoman.
    Chairwoman Kelly. Thank you very much.
    [The prepared statement of Mr. Gerald M. Howard can be 
found on page XX in the appendix.]
    Chairwoman Kelly. Mr. Tighe.

   STATEMENT OF THOMAS C. TIGHE, EXECUTIVE ASSISTANT TO THE 
     GENERAL PRESIDENT AND DIRECTOR OF STATIONARY AFFAIRS, 
           INTERNATIONAL UNION OF OPERATING ENGINEERS

    Mr. Tighe. Chairwoman Kelley, committee members, on behalf 
of General President Frank Hanley, I would like to thank you 
for the opportunity to offer comments to your subcommittees.
    My name is Thomas C. Tighe, and I am an Executive Assistant 
to General President Frank Hanley of the International Union of 
Operating Engineers. I have been a stationary engineer and 
associated with the building industry for 34 years.
    The International Union of Operating Engineers is a 
progressive trade union with over 400,000 members. Of that 
number, 120,000 are stationary engineers employed in the field 
of facility operations and maintenance, providing a safe and 
efficient environment for the American public.
    Stationary engineers perform work in a multitude of 
facilities throughout the United States. Our organization has 
developed a sophisticated and comprehensive network of training 
centers. We have the capacity to provide craft and regulatory 
compliance training programs. The IUOE is uniquely qualified to 
offer comments on indoor air quality issues at commercial 
facilities. Our organization has been a national leader in 
providing indoor air quality training.
    Mold is a growing concern, and the confusion over the issue 
continues to expand. Our organization is interested in the 
development of future policy on this matter.
    Mold presents a potential workplace hazard for workers and 
facility occupants. Your deliberations at these public hearings 
are important to the American public.
    The IUOE has three specific concerns and would like to 
briefly comment on each.
    The first concern is education on overall mold issues. The 
general public and industry-wide personnel need to be educated 
about the facts related to mold.
    Mold and IAQ-related issues are part of the new reality for 
the general public. Currently, media reports of litigation 
settlements are at the forefront of educating the public on the 
health hazards of mold. Without a consensus from the scientific 
community on the health effects of mold, speculation will drive 
this issue. There needs to be a comprehensive educational 
program with a clear understanding of the facts about mold and 
its potential health effects in our homes and workplace.
    The second concern is the lack of Federal mold standards. 
Due to the lack of Federal standards on prevention, 
investigation, testing and remediation of mold, the industry 
continues to be in a state of confusion. The lack of standards 
has multiple ramifications within a variety of industries.
    In commercial facilities, the manner in which mold 
complaints are handled are varied and lack uniformity. This 
could create a variety of inconsistent procedures that can lead 
to questionable practices.
    The Environmental Protection Agency should be commended on 
their work in producing guidelines on mold remediation in 
school and commercial buildings. The guidelines provide a 
general approach to a variety of issues when dealing with mold. 
The IUOE believes this is a good first step in addressing this 
issue.
    The problem remains, however, that until guidelines are 
transformed into standards, the industry-wide practice will 
remain non-uniform and, therefore, potentially unsafe.
    The third and last concern is that specific training on 
mold standards needs to be developed and delivered to a variety 
of industry personnel.
    With the establishment of Federal standards, training 
programs could be established to ensure a consistent and safe 
approach to mold issues. Standards would create specific 
procedures for the prevention, investigation, testing and 
remediation of mold. The development of comprehensive training 
for workers is imperative.
    I have been involved in many aspects of curriculum 
development and training implementation over the last 10 years 
and can attest to the benefits of providing workers with 
detailed training on performance-based objectives. This 
approach, in our judgment, provides a cost-effective, results-
oriented way of addressing complex problems such as mold 
prevention and remediation.
    The IUOE has experience in developing and delivering skill-
based training programs and would be willing to explore the 
possibilities of assisting in any future projects or programs 
recommended by these subcommittees.
    I would like to thank the committee for their time and 
effort in this matter.
    Chairwoman Kelly. Thank you very much, Mr. Tighe.
    [The prepared statement of Mr. Thomas C. Tighe can be found 
on page XX in the appendix.]
    Chairwoman Kelly. Ms. Ballard.

   STATEMENT OF MELINDA BALLARD, PRESIDENT, POLICYHOLDERS OF 
                            AMERICA

    Ms. Ballard. My name is Melinda Ballard, and I run an 
association of homeowners called Policyholders of America, or 
POA. Since we founded POA only 6 months ago, we have 18,763 
American families in our membership, all victims of toxic mold. 
That number should demonstrate what a crisis the American 
homeowner is in as it relates to toxic mold infestations of 
their homes.
    Our members range from welfare families to some of the most 
affluent in America. We are all active in politics not because 
we necessarily know anything about politics but we know that 
you all can and will make a difference for us. We also know 
that our problems are not your problems, and we don't want you 
or any other American family to suffer the financial turmoil 
and devastating health effects our families have suffered. This 
is why we are so passionate about this issue.
    I would like for everyone here to put themselves in the 
shoes of a young family who bought their first home after years 
of squirreling away enough money for a down payment. Imagine 
that a storm ravages your roof and driving rain enters your 
home. Imagine calling your insurance company to report this 
claim and being told it is not covered, even though the policy 
says it is. Imagine watching blood come out of your youngest 
child's ears and nose while she gasps for every breath and not 
having a clue as to why this is happening.
    Then imagine discovering that the roof leak that happened 
several months before, wrongly denied by your carrier, caused 
mycotoxin-producing molds to overtake several rooms of your 
house, including an entire wall in your child's bedroom.
    Now imagine that you and your entire family must abandon 
your home and all of your possessions because they are all 
contaminated; and continued exposure to these mycotoxins, now 
airborne, could cause your 5-year-old daughter irreparable 
harm. You get remediation bids and find that the cost of fixing 
your home is greater than the value of your home.
    Apart from losing your home and everything you own, your 
family also faces tremendous health care costs and will be 
burdened with the costs associated with renting temporary 
housing while you battle it out with your insurance carrier 
over the coverage that you, in fact, bought.
    You try to hire an attorney--and a lot of you all like to 
blame attorneys, and I don't much like attorneys, but I can't 
blame them for this. You try to hire one. They won't take it. 
They say that the damage to your life is only $200,000, and it 
is going to cost more than that to take the insurance company 
to trial. You can't afford to pay the out-of-pocket litigation 
cost, so you really have no recourse against your Goliath 
insurance company.
    If you are that family, you have only a few choices: You 
can walk away from your mortgage and let the house go back to 
the lender; you can pay the tab for remediation by taking out a 
second mortgage, but, unfortunately, that would mean that the 
total loan is greater than what the bank will let you borrow; 
you can sell your home to some poor unsuspecting family and not 
disclose the problems; or, you can stay there, continue to 
expose your family to the health hazards, and rack up medical 
bills to the point you claim bankruptcy.
    These are currently the choices of every family in our 
membership. The economy suffers, builders and mortgage 
companies suffer, the family who knowingly buys the problem 
because of nondisclosure suffers, the medical profession 
suffers. There are no winners. There are just losers.
    I have asked the staff here to provide you with a handout 
which is done State by State and by year of the mold claims as 
of February 5, 2002. These numbers should have been updated, 
but I was too busy to do that.
    But as of February 5, 2002, there were over 16,000 first-
party insurance cases. These are not legal cases, I want that 
to be understood. These are homeowners that have actually had 
to hire either an attorney or take their matter up with their 
State insurance department and get them to help resolve their 
claims.
    Chairwoman Kelly. Ms. Ballard, I want to remind you, you 
have 1 minute.
    Ms. Ballard. Thank you.
    POA has outlined a few recommendations that we would like 
for you to consider. Hopefully, these recommendations will help 
you carve a solution.
    We would very much be in favor of a self-funded government 
pool that mimics the flood insurance program. A couple of years 
from today there will be no insurance policy that covers mold, 
and homeowners need to have somewhere to go. That is a fact of 
life.
    We are not trying to bankrupt the insurance industry. We 
want them healthy and happy so that they can honor their 
policies in the future. But what we do need is a safety net to 
protect American families. The pool should not be considered an 
insurance bailout, it should be considered an American public 
bailout, and, by the way, a self-funded one.
    Because of the time restrictions, I will just submit the 
rest of my testimony as part of the written record.
    Chairwoman Kelly. Thank you. We have it, and it is already 
submitted as part of the written record. You will get another 
crack at this when questions come around.
    [The prepared statement of Ms. Melinda Ballard can be found 
on page XX in the appendix.]
    Chairwoman Kelly. We turn now to Mr. Stewart.

 STATEMENT OF GORDON STEWART, PRESIDENT, INSURANCE INFORMATION 
                           INSTITUTE

    Mr. Stewart. Thank you, Madam Chairman and members.
    The year 2001 was the worst in the history of the property 
casualty industry, but I am not here to ask for sympathy. That 
is the background. We estimate that in the homeowners sector 
the loss was about $8.9 billion.
    Mold is a major factor in these increased costs. Conditions 
have reached crisis proportions in Texas; and mold has become a 
serious problem in several other States, including California, 
Florida, Arizona and Nevada. Commercial and residential mold 
claims are now common in most other States as well, and we 
heard from some members about specific things going on in their 
districts.
    We have submitted a large number of slides and bars and 
pies that will give you a background of mold's impact 
economically on insurance.
    A couple of quick numbers. Mold claims in Texas rose 1,306 
percent between the first quarter of 2000 and the fourth 
quarter of 2002. The frequency of these claims per 1,000 
policyholders rose 1,286 percent during the same period.
    Mold claims in Texas, the cost of these claims, rose 560 
percent between 2000 and 2001. Now, up until the last few 
years, insurance adjusters routinely handled these in the 
context of sudden and accidental water damage, which is the 
only circumstance, as you know, under which mold is covered in 
the standard contract. Mold damage has been specifically 
excluded, unless it is a result of a covered peril, such as a 
burst pipe, et cetera. The simple presence of mold, the fact it 
is around, like termites or damage from vermin, is considered a 
home maintenance issue, not an insurance-covered issue. This 
has been true for a very, very long time.
    In homeowner's insurance today, the fear of litigation has 
led to great uncertainty about this long-standing coverage 
exclusion, and insurers are doing many things, as you probably 
know, to strengthen it, because it has always been there and 
now it is under some attack.
    Some reasons for this may be that, under the normal 
property insurance premise, property insurance makes people 
whole. It doesn't offer very much opportunity for significant 
recovery. If you can move into liability, if you can move into 
wrongful practices of some kind, if you can move into health, 
then that changes the economic possibility for litigation 
enormously.
    The result of this uncertainty is that costs are going up. 
Three years ago, the few claims that insurers did see were 
handled for a few thousand dollars. An average mold claim today 
costs about $35,000 and can easily exceed $100,000. That is 
just to look into the claim and deal with it. If you put that 
through the system, you can see what will happen to the cost 
and, therefore, what will be passed on to all of the other 
policyholders who don't have claims.
    The average cost per policyholder went from about $23--this 
is in Texas--in the first quarter of 2000 to about $444. That 
is what everybody else pays now if we look at every mold claim 
as a ``white suit'' problem. That resulted in additional 
insurance costs in Texas of about $850 million.
    Now, the surge and frequency and costs of these mold claims 
in Texas cannot be explained by changes in the weather, they 
cannot be explained by population growth, they can't be 
explained because somehow all the houses are now different. 
There has not been, as far as anybody knows, a new strain of 
mold, wildly toxic. There is not a new plague abroad in the 
land.
    So, as a member earlier said, what is the variable here? 
Well, we are not entirely sure, but one variable we do know is 
the frequency and extent of litigation that has emerged and the 
number of people who have flocked to the mitigation, analysis, 
testing industry, some of whom were doing air conditioning 
before, and we do know that these things are new.
    Now, are there possible risks in mold that are serious? 
Yes, there could well be. As some doctors will tell you, 
certain individuals may be susceptible to certain health 
consequences. But by no means are all Americans at risk from 
the mold that has always been there. They can't be more at risk 
now than they were in 1999. What could possibly have happened 
here? That is one of the things we are looking at.
    Today we are faced with a lot more claims without effective 
Federal or State standards of what is an acceptable exposure 
level, are the real health consequences. Nobody knows. We have 
greatly increased costs for the average claim, driven in large 
part by remediators who are just saying, this is what it will 
cost. We have few ways of evaluating that, unlike lots of other 
home costs we are used to. We have more court cases and 
accusations of severe and permanent health damage; and there is 
no peer reviewed, scientific research about health effects.
    Health claims are coming under property policies that were 
never intended to cover health claims, as you know. And now, 
fearing bad-faith lawsuits, which is an area where you can 
really build up the legal costs, insurers are tending to throw 
money at mold claims because they don't want to be accused of 
not doing everything they could be doing and having a very 
expensive lawsuit.
    The net of it is we have got these exploding costs, and the 
only thing to do is either cut back on coverage and pass on 
costs to policyholders. These things are going on in State 
after State, so we have a kind of insurance crisis developing 
as a result of the shock of this relatively recent occurrence.
    We are deeply concerned, and I say this not idly, about 
health consequences. If you think about property casualty 
insurance, you think of all the things we don't want you to do. 
We don't want you to drive drunk, we don't want you to smoke, 
we don't want you to do dangerous behaviors. We want you to 
live in a very sanitized, boring way. We are deeply, as you 
know, involved in air bags, seat belts, occupational safety, 
arson, fire, anything and everything to keep claim costs down. 
This is a mantra of insurers. That is one of the reasons we are 
considered to be boring to live around. We don't want bad 
things to happen to you.
    If there is a serious mold health problem, we would like to 
be able to deal with this, but we don't see that something is 
radically different biologically in 2001 than it was in the 
year 2000.
    Chairwoman Kelly. Mr. Stewart, you are over your time. 
Could you sum that up for us, please? We have your written 
statement as part of the record.
    Mr. Stewart. I would like to just tell you one story, since 
we heard an anecdote, and this happens to be my personal 
anecdote.
    We have an apartment. There was a water leak, a serious 
water leak. The ceiling came down. We came back, found it on 
the floor. Water damage. Lo and behold, we have mold.
    I have a 3-year-old daughter. We just heard about a 
hypothetical 5-year-old, or an anonymous 5-year-old. I have a 
3-year-old who I love to the ends of this Earth.
    What I did, in addition to calling people to do something 
about the leak, was I got my old clothes, I got Clorox, I got 
up on a ladder, I put on a mask, and day after day, until 
something could be done, I cleaned up the mold. She is okay.
    Chairwoman Kelly. Mr. Stewart, I am going to have to cut 
you off because you are really way over time, and I have not 
given anybody else this courtesy.
    Mr. Stewart. Fine. I wanted to end with my personal story.
    Chairwoman Kelly. Thank you very much.
    [The prepared statement of Mr. Gordon Stewart can be found 
on page XX in the appendix.]
    Mr. Stewart. We move now to Dr. Sandler.

   STATEMENT OF HOWARD M. SANDLER, M.D., PRESIDENT, SANDLER 
                OCCUPATIONAL MEDICINE ASSOCIATES

    Mr. Sandler. Good afternoon, Madam Chairwoman and members. 
My name is Howard Sandler. I am a physician specializing in 
occupational medicine and environmental health.
    I grew up in the D.C. area. My father was with the 
Department of Defense, and for the last 15 years I have lived 
in the great State of New York.
    I have served as a medical officer with NIOSH, I have been 
a consultant to OSHA, EPA, the Consumer Product Safety 
Commission, as well as local government agencies and private 
industry. I have investigated numerous indoor air quality 
problems throughout the country in a wide variety of buildings, 
homes and schools.
    Specifically, I am dealing with some of the buildings 
around the World Trade Center site, including some of those who 
have water damage and mold proliferation, as well as schools on 
Long Island and schools in the State of Illinois. Increasingly, 
these concerns have been around microbiologics, meaning 
bacteria, viruses, endotoxins produced by bacteria, the 
dampness associated with it, as well as dust mites and molds. I 
recently provided testimony before a New York State Senate 
hearing on proposed legislation on Long Island.
    Molds are everywhere. There are molds in this room right 
where we are right now, and there is probably enough in this 
room that they would not meet the new New York City Department 
of Health "guidelines." those guidelines, by the way, were 
produced not based on risk assessment on health, they were just 
pulled together as a consensus statement by a variety of 
different practitioners and specialists.
    The 100,000 species you heard from Dr. Redd certainly means 
we have a lot of molds. About 350 species produce mycotoxins. 
The diseases, as you heard about, that can be produced by molds 
are mycotoxicosis. In World War II the Soviet Union lost a lot 
of people and horses to ingestion of moldy grain and fodder. 
People died from this. If you have ever seen a case of 
mycotoxicosis, when it is real and based on ingestion, it looks 
like clinical radiation poisoning.
    But there are other disorders you heard about, such as 
allergies and hypersensitivity pneumonitis. I have allergies. 
My kids have allergies. We used to get allergy shots all the 
time. I understand, Madam Chairman, that you have asthma. 
Twenty to 30 percent of Americans have allergies, allergic 
rhinitis; and the most popular allergins, if you will, are 
dust, dust mites, pollens and molds.
    But, invariably, of all the schools and the different 
buildings that I have looked at, I rarely find somebody is 
allergic to the precise molds in those buildings. If you do 
skin testing on these people, you don't find a correlation, 
which is very curious.
    However, some people do walk into buildings, and there are 
studies that show, for example, that people who have allergies 
and asthma do worse in damp buildings. They try to correlate it 
with mold because we do know that mold will grow where there is 
moisture. But the studies don't show that. There are some 
equivocal studies showing yes, some showing no, which is 
typical in science, unfortunately.
    The present science, however, is limited; and the quality 
of the studies right now that have been done, for example, in 
the various buildings in New York, are not of the quality to 
give you dose response evaluation, nor specific mold type 
association with specific disorders.
    The reality of the claimed health effects now on mycotoxins 
and what has been called MVOCs, microbial volatile organic 
compounds, organic compounds which give you your mildew smell 
in your bathroom or basement, such as my basement on Long 
Island, in fact we don't know if those are related to health 
effects because they are in the air. The doses that you see in 
ingestion are much greater than you see on airborne exposures; 
and while there are certainly people who have theories about 
this, it is far from being understood.
    I think the key issue on legislation from a health and 
safety standpoint are the following: Number one, let's use the 
right definitions. Toxic mold is brand new. It is not 
scientific. It is based on media, legal and other issues. 
Certainly molds do produce toxins, but you just don't refer to 
things as toxic mold.
    I urge you to be very careful. Just don't say "harmful." 
harmful means nothing. Is it simply an aggravation of allergies 
or causing of allergies? So I think we have to be very careful 
how we do this.
    I think we also have to look at and be very careful with 
triggers like permissible exposure limits that OSHA sets or 
recommended, that NIOSH recommends. There is just no science 
there right now to do this.
    As far remediation, to what level? I don't know. Nobody 
knows, and that is the problem. While certainly, if you see a 
huge amount on the wall, you say, let's get rid of it, does 
that being on the wall produce enough in the air to cause a 
health problem? My studies of buildings all over the country 
just don't show it. However, I do see people who have illness.
    The bottom line is I urge the committee to address with 
adequate funding and oversight appropriate scientific research, 
assessment and recommendations. Let the legislation follow the 
development of sound science in this area.
    Thank you.
    [The prepared statement of Dr. Howard Sandler can be found 
on page XX in the appendix.]
    Chairwoman Kelly. Thank you very much, Dr. Sandler. I very 
much appreciate your comments. I will remind all of our 
panelists that we do have your written testimony, it is a part 
of our record and we will take it into consideration. I would 
like to give myself 5 minutes for questioning at this point. 
Dr. Redd, the first thing I would like to ask you, if you 
would, in your testimony you listed a Web site that was 
available to everyone who might have questions about the mold 
situation.
    I am wondering if you would say that now so we could put it 
in as a part of the record and for anyone who might be in the 
audience who might be interested in that Web site, they would 
have the opportunity to copy that down. I believe that you will 
find that on page 2 of your testimony, at least that is where I 
found it.
    Dr. Redd. The Web site on page 2 is NTP-
server.niehs.nih.gov.
    Chairwoman Kelly. Back slash. Would you say that again, 
please. Sorry, I want you to say it.
    Dr. Redd.  It is ntp, dash, S-E-R-V-E-R, dot, n-i-e-h-s dot 
NIH dot G-O-V.
    Chairwoman Kelly. And then you have to use the slash, the 
back slash.
    Dr. Redd. That is right. I think you have to start with 
http period, or, sorry, colon double slash.
    Chairwoman Kelly. But that is usually on everybody's 
computer. It is the rest of it. And I believe someone may want 
to correct me, it is--I think that slash is important in order 
to get to the route. Is that correct?
    Dr. Redd. I think it will--.
    Chairwoman Kelly. Dot G O V.
    Dr. Redd. I think just the G O V will get you there I 
think.
    Chairwoman Kelly. Just G O V will get us there. Thank you 
very much.
    I wanted to make sure, Dr. Sandler, you said toxic mold is 
a term that is scientifically inaccurate. That is very 
interesting, because I read the word toxic mold often in the 
press. When they describe mold, it is described as toxic. While 
all mold is not, those of us that like gorganzola and blue 
cheese are aware it is not toxic. Maybe it is. I would be very 
interested if you could define that, toxic mold.
    Dr. Sandler. There are certain molds that produce 
microtoxins, about 350 species, just like any other chemical. 
If you are exposed in the appropriate manner either through 
inhalation or more probably ingestion, these type of 
microtoxins have been shown to cause problems. The mere fact 
that you just go from mold to "toxic mold" to me is more of a 
media event than a scientific event. All chemicals are toxic at 
the right dose. That is all it means.
    So I think you have to be very careful, though, to let the 
research determine what are the roots of entry whether it is 
inhalation, ingestion, and I don't think it would be skin 
absorption, as well as the levels at which each one of those 
produce the problem. Clearly, like I said before, the Soviet 
Union experienced that bad--we lost I think 100 turkeys in this 
country. Not human turkeys, the fowl type.
    If you look it up in the literature, you will find there 
are plenty of mold-related cases and usually from ingestion of 
moldy food products. By the way, though, if you look at, as I 
think people already mentioned, there are a variety of 
different food substances. There are levels of microtoxins that 
are available. And the FDA has allowed a certain level of 
aflatoxin, which is a potentially carcinogen in wheat and other 
wheat products. So I don't think we can ever get rid of mold 
nor should we look at that. I think we should try to find out 
what is a level that won't produce harm.
    Chairwoman Kelly. Thank you. Dr. Redd, when the CDC 
finishes its literature review on mold, what are the potential 
next steps, and how likely is it that we are going to be able 
to separate the valid consumer risk from bad science? Dr. 
Sandler has brought this up. How are we, the public, going to 
understand this?
    Dr. Redd. The recommendations of the committee, the 
Institute of Medicine Committee, I think, is charged with doing 
exactly your last point. Separating the wheat from the chaff, 
the things that we know to be true from the things that we 
don't know to be true or not true. We are very much looking 
forward to the recommendations of that report, both from the 
public health intervention side as well as for guidance in the 
types of research that the committee recommends.
    Chairwoman Kelly.  Mr. Tighe, one last question, what is 
your union doing to educate your members at large and the 
consumers about controlling indoor mold growth?
    Mr. Tighe. We have trained stationary engineers that have 
the maintenance responsibility for about 2 billion square feet 
of commercial space to date. Unfortunately, when our course was 
written in 1995, mold was not a great issue in indoor air 
quality. Since then, it has been a growing issue. And we 
provide research, public research to our local union training 
programs and try to give them documents, as I referenced, the 
EPA remediation guide for schools and commercial facilities and 
try to establish best practices.
    Because the one thing that we have certainly heard today is 
that there continues to be the uncertainty as to the health 
effects of mold. But the one thing that is not uncertain is 
that there are very precise ways that you should deal with mold 
in order to not spread the mold. And just one example, if I 
may, Chairwoman, in most heating ventilation and air 
conditioning systems in the United States, they take the return 
air and rather than duct that air back to the system, they use 
the space that is above the ceiling. So there may be a 3-foot 
space above that ceiling, that return air is taken in and 
across that space and back into the system. Now, if you have 
leaks and you have moisture and you have mold, and somebody 
gets into that ceiling and disturbed that, that is picked up by 
the HVAC unit, put through the system, and dispersed into the 
occupant area.
    Well, we try to stress to stationary engineers and 
maintenance people that have some effect on this is to use good 
preventive maintenance activities and standards to try not to 
spread the molds to various areas.
    Chairwoman Kelly.  Thank you very much, Mr. Tighe. I am out 
of time and I turn now to Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much. I guess what we have 
heard today, it is a very interesting panel, a very diverse 
panel, is kind of there is something dangerous out there, we 
don't know what it is, so let's not fret too much about it; it 
is there, but we can figure it out in some time. Lawsuits is 
what is causing everything, it is not the mold. It is really 
mold, but if it weren't for the all the lawsuits, the mold 
would go away, and these kinds of situations.
    But I think there is kind of little middle ground here, and 
that is that something is wrong. There is a problem. Some may 
want to diminish the problem, some may want to blame the 
problem on lawyers, but the fact is that we have somebody that 
is here that represents 18,000 people that got together that 
doesn't seem like they all have a lawyer. They all went to 
court and they are all suffering some damage.
    And you know, I know that many times we like to look at 
situations and I was talking to my friend, Congressman Conyers, 
and we were talking about when AIDS first came and everybody 
said well, you know, that is just consenting homosexuals, that 
is really not a problem that the public has to deal with. And 
we deal with a lot of different things. You know, if people 
would only drive slower but then we decided seat belts was a 
good thing and side safety--I mean all kinds of safety things, 
and we passed laws and we save lives by doing that.
    We took on the--you know, if people didn't smoke, well, 
they wouldn't get lung cancer, but we put it on packages. I can 
even remember learning about good old Smokey the Bear and not 
ever starting a fire. We certainly know how important that 
message is given the tragedies that are happening in the west 
in our country.
    So it seems to me that there is a problem. I know that Mr. 
Howard from the home builders says yeah, there is a problem, 
get some standards. Let's figure it out so we can all use the 
same standards. It seems like Mr. Tighe also says let's figure 
this out. So I say let's figure it out because I think there is 
a problem out there that homeowners are having.
    I just have a problem with always blaming the victim, 
always saying well yeah people have a problem, but, you know, 
they are creating the problem so they can go to a lawyer and 
create a whole new industry. I don't know that people do that 
by and large. I find that the American public is honest, hard 
working, God fearing and is doing the right thing. And they are 
trying to keep their most valued asset, their home. So I guess, 
Dr. Redd, it is on you, when do you think we can have some 
answers that are, you know, scientific, objective, that we 
could look at so that we can create the kind of standards and 
legislation to help all of the home owners that Mrs. Ballard 
represents and that are suffering?
    Dr. Redd. I agree with your statement that we need some 
answers. As far as an exact timetable to have all of this 
figured out, I really can't give you that. What I can say is 
that in about a year, give or take a few months, we will have a 
report from the Institute of Medicine which will, more or less, 
provide with us a blueprint for things that we really ought to 
be doing now, and things that we ought to be studying. So I 
think that is going to be a real milestone in terms of getting 
the answers that we really need.
    Mr. Gutierrez. Do you have all of the staff and adequate 
funding that would you need to get an answer?
    Dr. Redd. I think that in terms of activity between now and 
the time that report is released, we do have resources to 
investigate clusters of illness as we find out about them. I 
think from the point of the--when that report comes out, it is 
going to depend on a lot of on what sort of recommendations 
there are. It is really impossible to say what might be in the 
report and whether, or whether we wouldn't have resources at 
that point.
    Mr. Gutierrez. Given today and the kinds of things that we 
have learned today and the kinds of information that we have, I 
think it would be safe to say that there are molds, molds do 
cause problems, they are some relationship with molds and 
illnesses, but we are not quite sure what the relationship is 
between those illnesses and molds. But mold, I don't think it 
is an issue we should ignore.
    Dr. Redd. I absolutely agree with that.
    Mr. Gutierrez. Thank you. We will see if we can work with 
you to get that report as quickly as possible to get some 
solutions. Thanks.
    Mr. Miller. [presiding.] Thank you. I award myself five 
minutes. I was reading the book Leviticus that said God put a 
spreading mold in the House of Aaron and Moses. I don't 
disagree with what my colleague said at all. We know there is 
mold, the only difference is we don't know what the problem is. 
I listened to every witness out here, and everyone acknowledges 
yes, there is mold, but is there necessarily a harmful affect 
on individuals from that mold. Is it a causal effect of the 
mold that happens to be there and an individual who might be 
sick.
    Just because there is mold does not mean an individual is 
sick from that mold. Yet the mold might be causing some damage. 
We don't really know. I have tried to research this as hard as 
I could and I have read everything I can get. I have talked to 
environmental scientists and I have talked about the parts per 
billion in a silo and this and that. We could argue mulch and 
all these things, but the problem is we don't know what the 
problem is.
    And I think, Mr. Gonzales, you said earlier we want to hear 
the facts. I can't agree with you more. I believe 
accountability and responsibility and when it came to the seat 
belt your car hits the wall, if a person flies through the 
window well, yeah, you know, a seat belt is going to stop you 
from flying through the window. But that is not what mold is. 
And you gave this very--Mrs. Ballard, you gave a statement and 
you painted this picture imagery, it was imagine the insurance 
company report that the claim, you know, you have, that it is 
being denied, and imagine watching blood come out of young 
child's ears and nose and the insurers denying a claim. That is 
terrible. Nobody would accept that. That is egregious. But was 
that your situation?
    Ms. Ballard. Yes, it was. We tried to make repairs. We had 
scheduled repairs in our home in January and February of 1999.
    Mr. Miller. I wanted to ask you about that. What was your 
problem?
    Ms. Ballard. We had a series of water leaks. It was several 
plumbing leaks.
    Mr. Miller. It was in January?
    Ms. Ballard. It was in December of 1998. Close to January.
    Mr. Miller. In the testimony you had given, you had said it 
was in January of 1998. And then when did you notify your 
insurer of that?
    Ms. Ballard. Immediately.
    Mr. Miller. Your testimony said December of 1998 you 
notified your insurer of a leak and made a claim. You found it 
in January and you notified the insurer.
    Ms. Ballard. No. No. No. I am sorry, let me clarify. The 
claim was made in December of 1998.
    Mr. Miller. You notified the insurer that you had a leak in 
December of '98, but you found the leak in January. So almost a 
year went by between when you found the leak and notified them. 
You notified them in December and then 2 months later they gave 
you a check for $108,618. Is that correct?
    Ms. Ballard. Not exactly. I think you are misquoting our--
well, please, let me finish because I don't want you to 
misquote anything. We had 13 water leaks in our house. And our 
claim, what our insurance company thought was the source of the 
problem had been fixed 10 months before I had reported a claim. 
It appeared as though--not appeared, it was found out 
subsequent to that that there were 13 water leaks that were not 
discovered by the insurance company's plumbers.
    Mr. Miller. But what we gathered from the court text was 
that they were notified in December. And 2 months later they 
wrote you a check for 108,000. The point I am trying to make is 
if we are dealing--you painted this picture about negligence 
and the terrible insurance company. That is an egregious 
company to think an insurer would come out and deny a claim. 
But in your situation, they didn't deny your claim.
    In fact, when they paid you in February, your attorney 
notified them of mold April 7th of 1999. That is the first time 
the insurer knew about mold. April 8th the next day, they 
inspected your home.
    Ms. Ballard. That is incorrect. Just so we go back and I 
don't want you to misspeak--.
    Mr. Miller. I don't want to.
    Ms. Ballard. The claim was made, they thought the cause was 
relating to a water leak that had been fixed 10 months before. 
They, in fact, were incorrect. It was there were 13 other 
ongoing leaks. Now, they did pay $100,000. We refused to accept 
the check telling them that that was insufficient.
    Mr. Miller. But you cashed--but--one second. You cashed 
that check in late February, that month.
    Ms. Ballard. We told them this was unacceptable because 
their own estimates were well exceeding that amount.
    Mr. Miller. I accept that. And then in April you told them 
about the mold. And then you both agreed to an independent 
umpire. And they gave you a check for $1.2 million.
    Ms. Ballard. Sir, that occurred about 18 months after we 
are talking. Mold does not stop growing because of an insurance 
company's delays. They--and the appraisal process was called 
for by the insurer, the umpire was later found out to have 
been--.
    Mr. Miller. I am running out of time. Did you ever make the 
repairs.
    Ms. Ballard. Yes, we did. We repaired every water leak in 
the house.
    Mr. Miller. I am going to have to reread the court document 
because it said they were never made.
    Ms. Ballard. We repaired every water leak in the house.
    Mr. Miller. I am going to close with the fact that if 
anybody has a claim and an insured does not cover it, there is 
not a person on this panel who would not want to hold the 
insurance company absolutely accountable and responsible for 
that. But what was the entire--there was--there was no award to 
you for health.
    Ms. Ballard. No, sir, there was not.
    Mr. Miller. What was the total award? 33 million?
    Ms. Ballard. 32, and there was $6-1/2 million of actual 
proven property damage. Every one has focused on the health 
effects.
    Mr. Miller. $6 million worth of property damage in a home 
that you paid $275,000 for 10 years before.
    Ms. Ballard. And made a whole lot of additional 
improvements and had a lot--.
    Mr. Miller. Must have been--thank you very much. Ms. Lee. I 
am sorry, Mr. Gonzales then. Mr. Inslee.
    Mr. Inslee. I am sorry, I thought there was others who have 
been waiting longer than me.
    Mr. Miller. You want me to pass you and come back.
    Mr. Inslee. I will go ahead. I am trying to be gracious. 
That is a little unusual here so I was just trying. Mr. Howard, 
I think you heard me allude to my son builds houses on 
Bainbridge Island, Washington. That is just west of Seattle.
    Mr. Howard. God bless him, sir.
    Mr. Inslee. We are proud of our sons and daughters. He does 
great work. He really is a guy who takes a lot of pride in his 
work. That is one of the things I am so proud of in seeing his 
work. And I want to ask you about your sort of response to this 
issue. When an industry gets in a situation like this where you 
have obviously had an explosion in claims it sounds like 
listening to Mr. Stewart, any way, there is sort of a couple 
responses it can take. One it can try to educate the public 
about how to--maybe three kind of responses, educate the public 
on how to avoid problems associated with the product, that is 
one response.
    Second, to try to deny there is any losses associated with 
the product, that is the second response, and third, to try to 
reduce the occurrence of the problem by helping educate members 
of the association of your producers in how to reduce the 
exposure, reduce the number of incidents which do occur, I 
think everybody agrees, on occasion. Could you categorize how 
your engineers have been on those three efforts?
    Mr. Howard. We have been very aggressive in items 1 and 3, 
specifically we have, as I mentioned in my statement, prepared 
a Web site which would be mold tips dot com for consumer Web 
sites, for consumers to go on and look, and we have got a whole 
list of things that home owners can do to reduce the presence 
of mold and the presence of moisture which seems to be from our 
research the primary reason for mold in structures. So we have 
been very aggressive in trying to educate the consumers. I 
would point out again our efforts in that regard are bilingual.
    Secondly, we have a very well respected research laboratory 
here in suburban Maryland called the NHB Research Center. It is 
one of the preeminent laboratories for housing research in the 
United States. The research center has undertaken to study the 
building envelope as a whole to make determinations about what 
we can do in the construction process to minimize the 
possibility for mold in the home.
    In addition to that, we study individual products to 
determine mold, their likelihood for providing a food source 
for mold, and we are also studying products that are also being 
touted as mold eliminators. So we are active in educating the 
consumer in researching products and the whole construction 
process so we can educate our members and in reaching out to 
our members once they that information and educating the 
public. We do not deny that there is a problem. We would like 
to see the problem studied.
    There is obviously a difference of opinion about the extent 
of the problem, what causes it. And until we know exactly what 
causes it, that is as far as I think we are prepared to go at 
this point. I would say, however, that we are prepared to 
assist the Congress, the CDC or anybody else in the research 
and we make our services available.
    Mr. Inslee. What do you think is the most frequent reason 
for a problem of excess moisture that might end up in mold 
growth? If you are going, if you can just categorize it in the 
industry.
    Mr. Howard. I would have to, Mr. Inslee, respectfully ask 
to be able to answer that in writing. I am not an expert on 
that and I don't know the answer off the top of my head.
    Mr. Inslee. If could you do that I appreciate that. I will 
get you my card.
    Mr. Stewart.
    Mr. Stewart. On the subject of public information and 
education, it really is the first line of activity of our 
organization. Because it is--anything related to any kind of 
insurance risk we are trying to do things with this workplace 
safety or anything that will help that. We have a Web site that 
has about 4 million hits a month. And we also do video news 
releases to news stations that have reached some 10, 15 million 
people. It is a major front line activity.
    As I have said, my own personal example we encourage 
everybody else. The first line of defense is do something about 
it rather than wait for the problem to go. If it is hidden that 
is one thing. Obviously you can't. If there is negligence on 
the part of some party, that is something else. An overwhelming 
majority of cases simple behavior changes will fix the mold 
problem.
    Mr. Inslee. Given your success, if I get a constituent with 
a mold problem, I will give him your home number.
    Mr. Stewart. We maintain a national consumer hot line.
    Mr. Inslee. Thank you. I have one more question. Mr. 
Sandler, we have this case on my island where the school got a 
problem, $100,000 to fix the problem, sort of, I guess, 
everybody agreed there was a problem with excess moisture, 
excess mold and there were some pretty well documented health 
problems associated with it. And I haven't asked the people 
involved. But are there standards now that people do look to 
for some guidance as to what an acceptable level is in the 
ambient air? If I had a constituent who said I bought this 
house, I think it has got too much mold, my children are having 
asthma attacks, et cetera, what do I tell them as to what to 
decide whether there is too much or too little mold or what is 
the situation with standards in that regard?
    Dr. Sandler. I think the first issue that you really have 
to look at is truly what is causing the problems. Remember in a 
school environment, for example the biggest health hazard you 
have are with the kids because of the viruses that they share 
to each other and the teachers. So that is issue. Why do 
people, for example, feel better during the summer? Is it 
because they are no longer in the school environment or is it 
because they are no longer being exposed to the viruses. Could 
it be the issues of bacteria and endotoxin? Could it be from 
dust mites? Could it be from a variety of different things? A 
lot of children or adults once they have asthma, they may have 
their symptoms exacerbated by odors. So sometimes it could 
simply be the mildew or some other odor that is present in the 
school. Certainly once you have a mold infestation, it is not 
pretty, can be structurally problematic.
    Mr. Miller. The gentleman's time has expired. We have to 
wrap this up. We have two votes on the floor. We are going to 
temporarily recess for about 20 minutes. But I would grant Mr. 
Israel 30 seconds to welcome one of the witnesses who is from 
his district.
    Mr. Israel. Thank you, Mr. Chairman. I understand that Dr. 
Sandler's company is based in Melville, Long Island, my neck of 
the woods. I haven't had an opportunity to hear your testimony, 
I am sorry I was late, but I wanted the opportunity to welcome 
you to the Capitol and look forward to working with you.
    Mr. Miller. The meeting is recessed for 20 minutes.
    Chairwoman Kelly. [presiding.] The hearing is going to 
resume now. Apparently some of the people are either stuck on 
the floor or had to go to other hearings. I am going to hold 
this hearing record open for 30 days so that the members who 
were not able to attend the hearing will be able to direct 
written questions to this panel, and you can respond within 
that 30-day period. Since there are no more questions, the 
Chair will note that there will be these additional questions. 
So without objection, this hearing record will remain open for 
30 days for members to submit those questions and witnesses to 
respond.
    I want to thank all of you here today. This is a very 
thorny difficult problem. We need sound science and we need 
alternatives. We also need some insurance alternatives so that 
the insurance question is able to be met with some alacrity on 
the part of the people in the industry being able to take care 
of those people, like Mr. Tighe and the other people, Mr. 
Howard, your groups of people who are involved can get some 
protection. And also Ms. Ballard, we need to get you some 
protection too.
    So I thank you all very much for appearing here today. I am 
sorry that we kept you through the hearing. I had assumptions 
that some of the people were going to come back but apparently 
they aren't able to. So thank you. We appreciate it. And this 
hearing is adjourned.
    [Whereupon, at 4:22 p.m., the joint subcommittee was 
adjourned.]
                            A P P E N D I X



                             July 18, 2002
[GRAPHIC] [TIFF OMITTED] 82476.001

[GRAPHIC] [TIFF OMITTED] 82476.002

[GRAPHIC] [TIFF OMITTED] 82476.003

[GRAPHIC] [TIFF OMITTED] 82476.004

[GRAPHIC] [TIFF OMITTED] 82476.005

[GRAPHIC] [TIFF OMITTED] 82476.006

[GRAPHIC] [TIFF OMITTED] 82476.007

[GRAPHIC] [TIFF OMITTED] 82476.008

[GRAPHIC] [TIFF OMITTED] 82476.009

[GRAPHIC] [TIFF OMITTED] 82476.010

[GRAPHIC] [TIFF OMITTED] 82476.011

[GRAPHIC] [TIFF OMITTED] 82476.012

[GRAPHIC] [TIFF OMITTED] 82476.013

[GRAPHIC] [TIFF OMITTED] 82476.014

[GRAPHIC] [TIFF OMITTED] 82476.015

[GRAPHIC] [TIFF OMITTED] 82476.016

[GRAPHIC] [TIFF OMITTED] 82476.017

[GRAPHIC] [TIFF OMITTED] 82476.018

[GRAPHIC] [TIFF OMITTED] 82476.019

[GRAPHIC] [TIFF OMITTED] 82476.020

[GRAPHIC] [TIFF OMITTED] 82476.021

[GRAPHIC] [TIFF OMITTED] 82476.022

[GRAPHIC] [TIFF OMITTED] 82476.023

[GRAPHIC] [TIFF OMITTED] 82476.024

[GRAPHIC] [TIFF OMITTED] 82476.025

[GRAPHIC] [TIFF OMITTED] 82476.026

[GRAPHIC] [TIFF OMITTED] 82476.027

[GRAPHIC] [TIFF OMITTED] 82476.028

[GRAPHIC] [TIFF OMITTED] 82476.029

[GRAPHIC] [TIFF OMITTED] 82476.030

[GRAPHIC] [TIFF OMITTED] 82476.031

[GRAPHIC] [TIFF OMITTED] 82476.032

[GRAPHIC] [TIFF OMITTED] 82476.033

[GRAPHIC] [TIFF OMITTED] 82476.034

[GRAPHIC] [TIFF OMITTED] 82476.035

[GRAPHIC] [TIFF OMITTED] 82476.036

[GRAPHIC] [TIFF OMITTED] 82476.037

[GRAPHIC] [TIFF OMITTED] 82476.038

[GRAPHIC] [TIFF OMITTED] 82476.039

[GRAPHIC] [TIFF OMITTED] 82476.040

[GRAPHIC] [TIFF OMITTED] 82476.041

[GRAPHIC] [TIFF OMITTED] 82476.042

[GRAPHIC] [TIFF OMITTED] 82476.043

[GRAPHIC] [TIFF OMITTED] 82476.044

[GRAPHIC] [TIFF OMITTED] 82476.045

[GRAPHIC] [TIFF OMITTED] 82476.046

[GRAPHIC] [TIFF OMITTED] 82476.047

[GRAPHIC] [TIFF OMITTED] 82476.048

[GRAPHIC] [TIFF OMITTED] 82476.049

[GRAPHIC] [TIFF OMITTED] 82476.050

[GRAPHIC] [TIFF OMITTED] 82476.051

[GRAPHIC] [TIFF OMITTED] 82476.052

[GRAPHIC] [TIFF OMITTED] 82476.053

[GRAPHIC] [TIFF OMITTED] 82476.054

[GRAPHIC] [TIFF OMITTED] 82476.055

[GRAPHIC] [TIFF OMITTED] 82476.056

[GRAPHIC] [TIFF OMITTED] 82476.057

[GRAPHIC] [TIFF OMITTED] 82476.058

[GRAPHIC] [TIFF OMITTED] 82476.059

[GRAPHIC] [TIFF OMITTED] 82476.060

[GRAPHIC] [TIFF OMITTED] 82476.061

[GRAPHIC] [TIFF OMITTED] 82476.062

[GRAPHIC] [TIFF OMITTED] 82476.063

[GRAPHIC] [TIFF OMITTED] 82476.064

[GRAPHIC] [TIFF OMITTED] 82476.065

[GRAPHIC] [TIFF OMITTED] 82476.066

[GRAPHIC] [TIFF OMITTED] 82476.067

[GRAPHIC] [TIFF OMITTED] 82476.068

[GRAPHIC] [TIFF OMITTED] 82476.069

[GRAPHIC] [TIFF OMITTED] 82476.070

[GRAPHIC] [TIFF OMITTED] 82476.071

[GRAPHIC] [TIFF OMITTED] 82476.072

[GRAPHIC] [TIFF OMITTED] 82476.073

[GRAPHIC] [TIFF OMITTED] 82476.074

[GRAPHIC] [TIFF OMITTED] 82476.075

[GRAPHIC] [TIFF OMITTED] 82476.076

[GRAPHIC] [TIFF OMITTED] 82476.077

[GRAPHIC] [TIFF OMITTED] 82476.078

[GRAPHIC] [TIFF OMITTED] 82476.079

[GRAPHIC] [TIFF OMITTED] 82476.080

[GRAPHIC] [TIFF OMITTED] 82476.081

[GRAPHIC] [TIFF OMITTED] 82476.082

[GRAPHIC] [TIFF OMITTED] 82476.083

[GRAPHIC] [TIFF OMITTED] 82476.084

[GRAPHIC] [TIFF OMITTED] 82476.085

[GRAPHIC] [TIFF OMITTED] 82476.086

[GRAPHIC] [TIFF OMITTED] 82476.087

[GRAPHIC] [TIFF OMITTED] 82476.088

[GRAPHIC] [TIFF OMITTED] 82476.089

[GRAPHIC] [TIFF OMITTED] 82476.090

[GRAPHIC] [TIFF OMITTED] 82476.091

[GRAPHIC] [TIFF OMITTED] 82476.092

[GRAPHIC] [TIFF OMITTED] 82476.093

[GRAPHIC] [TIFF OMITTED] 82476.094

[GRAPHIC] [TIFF OMITTED] 82476.095

[GRAPHIC] [TIFF OMITTED] 82476.096

[GRAPHIC] [TIFF OMITTED] 82476.097


</pre></body></html>
